September 20, 2010

JOSEPH CORBETT
EXECUTIVE VICE PRESIDENT, CHIEF FINANCIAL OFFICER

ANTHONY VEGLIANTE
EXECUTIVE VICE PRESIDENT, CHIEF HUMAN RESOURCES OFFICER

SUBJECT: Audit Report – U.S. Postal Service Purchasing Policies
        (Report Number CA-AR-10-005)

This report presents the results of our audit of U.S. Postal Service Purchasing Policies
(Project Number 10YG013CA000). The report responds to a congressional request to
review Postal Service purchasing policies for noncompetitive contracting and conflicts of
interest. Specifically, we were asked to compare those policies against those in the
Federal Acquisition Regulation (FAR). 1 Our objectives were to (1) assess the Postal
Service’s procurement policies for awarding noncompetitive contracts and dealing with
conflicts of interest, (2) determine how Postal Service policies compare to federal
regulations and private industry best practices, and (3) assess the Postal Service’s
compliance with its existing noncompetitive contract policies and procedures. This audit
addresses operational risk. See Appendix A for additional information about this audit.

In 1970, Congress passed the Postal Reorganization Act2 which established the Postal
Service. The newly established Postal Service was given flexibility with its purchasing
practices and was exempt from most federal procurement regulations. Since then, the
Postal Service’s purchasing policies have gone through many changes and iterations in
an effort to follow the procurement developments of the private sector, streamline its
acquisition process, and reduce purchasing costs. The 2006 Postal Accountability and
Enhancement Act reaffirmed the sense of Congress that the Postal Service should
implement commercial best practices in their purchasing policies. The Postal Service is
not required to comply with certain key federal procurement regulations and laws, such
as the FAR and the Competition in Contracting Act of 1984. 3




1
  In 1984, the FAR was established to codify uniform policies for acquisition of supplies and services by executive
agencies.
2
  The U.S. Postal Service was established as an independent establishment within the executive branch of the
government of the U.S. under the Postal Reorganization Act of August 12, 1970 (Public Law 91–375, 84 Stat. 719).
5
  Revised the FAR to encourage competition for awarding all types of government contracts. The purpose was to
increase the number of competitors and savings through lower, more competitive pricing.
U.S. Postal Service Purchasing Policies                                                               CA-AR-10-005



Conclusion

Congress directed the Postal Service to largely operate outside of the federal
procurement regulatory environment with the mission of establishing a more efficient
purchasing process. Although this provided increased contracting freedom and
flexibility, necessary safeguards to balance these freedoms and ensure protection of the
Postal Service’s interests were not consistently established or followed. Thus, the
Postal Service’s procurement policies and procedures for awarding noncompetitive
contracts are much less extensive than those mandated in the FAR for federal
agencies. While the Postal Service has strengthened its noncompetitive purchasing
policy and has taken steps to inform COs of their responsibilities4, additional controls
are needed to ensure the Postal Service’s interests are protected. Specifically, steps
need to be taken to:

        Strengthen the oversight and transparency of the Postal Service’s
         noncompetitive purchasing.

      Maximize competition.

      Ensure best value.

      Avoid any actual or apparent conflicts of interest in the contracting process.

We also found that the Postal Service cannot readily identify its noncompetitive contract
universe and is not consistently complying with existing controls for justifying and
approving noncompetitive contracts.

Postal Service Policies Controlling Noncompetitive Contracts Need
Strengthening

We compared the Postal Service’s policies and procedures for awarding noncompetitive
contracts with that of the FAR. It is important to note that the FAR is statutory, while the
Postal Service’s Supplying Principles and Practices are not. Additionally, we found that,
while there are some similarities, the FAR provided a more effective control
environment for awarding these contracts and addressing the associated risks. These
differences are a result of the 1970 removal of the Postal Service from the federal
contracting environment with the expectation that it would function like a private sector
entity. This latitude allows the agency to operate in a more efficient, business-like
manner, while providing appropriate accountability and oversight to ensure fair and


4
  A revised management instruction on noncompetitive purchases (MI-SP-S2-2010-1) was issued on June 29, 2010;
a memo was issued to contracting officers (CO) regarding noncompetitive purchases on July 16, 2010; and several
training sessions were held the last week of July. The training sessions, which included participation of the Postal
Service Chief Counsel, Ethics and Federal Requirements, covered the new management instruction and provided a
focus on the new conflict of interest requirements.




                                                          2
U.S. Postal Service Purchasing Policies                                                                CA-AR-10-005



transparent operations. The primary differences that impact the Postal Service’s ability
to support competition and achieve best value are:

        The FAR requires designation of a competition advocate5 and the Postal Service
         does not.

        The FAR requires transparency in the public reporting of noncompetitive contract
         awards and their justifications and the Postal Service does not.

        Postal Service policy allows the vice president, Supply Management, to delegate
         contractual authority to other business units. When this authority is delegated,
         most of the Postal Service’s purchasing policies no longer apply. The FAR does
         not support delegation of contracting authority to other business units and FAR
         compliance cannot be waived.

In addition, the FAR requirements for justifying noncompetitive contracts are more
stringent than Postal Service policies. FAR-specific requirements not present in Postal
Service policies are:

        A description of efforts made to ensure receipt of offers from as many potential
         sources as is practicable.

        The CO determination that prices are fair and reasonable.6

        The CO certification that the contract’s justification is accurate and complete to
         the best of their knowledge and belief.

However, although the FAR requirements are generally more stringent than Postal
Service policies, we did note that Postal Service noncompetitive justification approval
thresholds are lower than those required by the FAR. Manager approval is required if
the noncompetitive purchase is expected to exceed $250,000. The vice president,
Supply Management, must approve all noncompetitive purchases valued at over $10
million and all noncompetitive purchases for professional, technical or consultant
services valued at over $1 million. The FAR requires CO approval of purchases over
$550,000 and senior procurement executive approval for purchases starting at $57
million.7



5
  Per the FAR §6.502, “competition advocates are responsible for promoting the acquisition of commercial items,
promoting full and open competition, challenging requirements that are not stated in terms of functions to be
performed, performance required or essential physical characteristics, and challenging barriers to the acquisition of
commercial items and full and open competition such as unnecessarily restrictive statements of work, unnecessarily
detailed specifications, and unnecessarily burdensome contract clauses.”
6
  While not requiring documentation of a determination that prices are fair and reasonable as part of the
noncompetitive justification, the SP&Ps do require that price/cost analysis be documented in the contract file.
7
  Per the FAR §6.304, Approval of the Justification.




                                                          3
U.S. Postal Service Purchasing Policies                                                                 CA-AR-10-005



We also reviewed private industry practices regarding management and oversight of
noncompetitive contracts and found that private industry endorses competitive
acquisition and generally requires special approval for noncompetitive contracts.

Conflicts of Interest Policies Need to be Strengthened

We analyzed Postal Service guidance for handling potential conflicts of interest in the
contracting environment. We also compared Postal Service policy to the ethics policies
of both the FAR and the Institute of Supply Management (ISM).8 All of these guidelines
emphasize the importance of avoiding the appearance of a conflict of interest or
impropriety in the conduct of business activity, particularly when procuring services.

However, the recent investigation of a high-level Postal Service executive found that the
control environment within the agency allowed the requesting business function to
negotiate prices and award contracts to friends and former associates even though
there were apparent conflicts of interest. Although COs were, at times, aware of
potential conflicts of interest, they did not always object.

Because awarding noncompetitive contracts by nature can give the appearance of
favoritism and lack of impartiality, it is essential that contracting personnel approving
these contracts consider any potential appearances of impropriety before approving the
noncompetitive purchase. A recent update to the Postal Service’s noncompetitive
contracting policy9 requires the requester to submit a certification regarding real or
apparent conflicts of interest. Management can further improve this by requiring COs to
take steps to address any ethical issues disclosed or later discovered.

The Postal Service Cannot Accurately Identify its Noncompetitive Contract
Universe

We found that the Postal Service cannot readily or accurately compile its
noncompetitive contract universe. Specifically, we found at least $910,965,964 of
$17,991,496,721 (or 5.1 percent) in contractual actions the Postal Service either could
not classify as competitive or noncompetitive or classified incorrectly. This occurred
because Postal Service contracting systems do not classify all contracts as competitive
or noncompetitive. An attempt was made to manually analyze the universe of
contractual actions, but not all the contractual actions were classifiable and some were
classified incorrectly.

In addition to these misclassifications, there are a large number of Postal Service
contracts completely excluded from its recorded universe of contractual actions. These
exclusions are the result of the Postal Service not recording contracts awarded through

8
  Established in 1915, the ISM is the largest organization of supply management professionals in the world. Its self-
defined mission is to lead the supply management profession through its standards of excellence, research,
promotional activities, and education.
9
  Management Instruction (MI)-SP-S2-2010-1, Noncompetitive Purchases, dated June 29, 2010.




                                                           4
U.S. Postal Service Purchasing Policies                                         CA-AR-10-005



delegations of contracting authority in its contract universe. As such, the Postal Service
does not know the committed dollars and number of those contractual actions or
whether they are competitive or noncompetitive.

Because data on the competitive status of Postal Service contracts is not complete or
accurate, the Postal Service cannot analyze the true extent of competition among its
contracts. In addition, it cannot track or trend noncompetitive contracting to provide the
oversight necessary to ensure maximized competition. Finally, there is increased risk
that modifications to noncompetitive contracts could increase their dollar value far
beyond the original approval thresholds.

Postal Service Personnel Did Not Consistently Comply with Existing
Noncompetitive Contracting Policies

We also found that 24 of the 68 (or 35 percent) of the noncompetitive contracts we
reviewed were not sufficiently supported per Postal Service policy. Policies contain
minimum requirements for noncompetitive justifications, market research, and
endorsement and approval requirements. Compliance with these requirements is
essential to ensuring fair treatment of suppliers, adequate competition, and the best
value to the Postal Service.

Our review included seven contractual actions identified in a recent investigation of a
former Postal Service executive who exerted undue influence on the contracting
process in their negotiation and award, and four professional services contracts with
description codes similar to the contracts identified during the investigation. None of
these 11 contracts met the minimum requirements for noncompetitive justification.

Finally, we also evaluated contracts awarded noncompetitively to former Postal Service
employees. By matching Postal Service vendor file information to employee file
information, we identified 2,788 contracts in the Contract Authoring Management
System with current and former Postal Service employees with separation dates dating
back to August 31, 1991, and 359 of those were awarded to employees with separation
dates in the last 3 years (October 1, 2006, to September 30, 2009).

We focused our testing in this audit on contracts with former executives because the
Postal Service has very specific requirements regarding these awards. We found 17
contracts that were awarded noncompetitively in the last 3 years to former Postal
Service executives. We analyzed three of those and found that they were awarded for
“knowledge transfer” and other duties related closely to their former Postal Service
position. None of the three contracts met the minimum requirements for noncompetitive
justification. We will review more broadly the propriety of Postal Service contracts with
former employees and the control environment surrounding them in fiscal year (FY)
2011.




                                             5
U.S. Postal Service Purchasing Policies                                                             CA-AR-10-005



The noncompliant, insufficiently supported contracts totaled $218,940,344. These costs
are questioned because their noncompetitive justifications do not contain all the
required elements and/or approvals/endorsements prescribed by Postal Service policy.
These amounts are not necessarily actual losses incurred by the Postal Service.

Also, because data used to support management decisions is incomplete and/or
inaccurate and the existence of unethical appearances could result in negative publicity
to the Postal Service, we are also reporting non-monetary impact for data integrity10 and
goodwill/branding.11 See Appendix B for our detailed analysis of these topics and
Appendix C for a discussion of the monetary and non-monetary impacts reported.

We recommend the chief financial officer, in coordination with the chief Human
Resources officer:

1. Establish a competition advocate within the Postal Service to independently review
   and approve justifications for noncompetitive purchases and support the use of
   competition in the Postal Service. The competition advocate should also prepare
   and submit an annual report to the chief financial officer and vice president, Supply
   Management, describing barriers to competition and goals and plans for increasing
   competition.

2. Immediately discontinue contracting with former Postal Service executives until
   adequate controls are implemented. Such controls should address the appropriate
   duty and function of former executives in contracted positions, ensure no former
   executive is paid more than the equivalent of their previous Postal Service rate of
   pay if contracted noncompetitively, and require a thorough cost and price analysis of
   proposed rates.

3. Review the need for and propriety of all existing contracts with former executives.

4. Amend the Administrative Support Manual to emphasize the importance of
   compliance with all policies, circulars, and instructions pertinent to encouraging
   competition and managing noncompetitive purchases.

Further, we recommend the chief financial officer instruct the vice president, Supply
Management, to:

5. Take steps to ensure full and accurate tracking and public reporting of
   noncompetitive contracting actions. Data reported should include, but not be limited
   to, total dollars committed both competitively and noncompetitively; and the
   contractor, dollar value, and noncompetitive justifications for noncompetitive
   contracts. The tracking mechanism should be able to identify when a noncompetitive

10
   Inaccurate or unsupported data used to support management decisions. This can be the result of flawed
methodology; procedural errors; or missing or unsupported facts, assumptions or conclusions.
11
   An actual or potential event or problem that could harm the reputation of the Postal Service.




                                                        6
U.S. Postal Service Purchasing Policies                                         CA-AR-10-005



    contract has crossed the review and approval threshold based on modification after
    initial award.

6. Revoke delegations of authority for contracts that acquire goods and services for the
   Postal Service and bring these contracts into compliance with all Postal Service
   purchasing policies.

7. Require that noncompetitive purchase contract files include a determination by the
   CO that prices are fair and reasonable and a CO’s certification that the justification is
   accurate and complete to the best of their knowledge and belief. A detailed analysis
   supporting these certifications should be part of the noncompetitive purchase
   documentation.

8. Require Supply Management officials approving noncompetitive contracts to review
   purchases for potential or apparent conflicts of interest and evaluate any potential
   conflicts through the agency’s ethics official before approval. The opinion and
   recommendations of the agency ethics official should be documented in the contract
   file. In addition, any person found to have an actual or apparent conflict of interest
   should not be allowed to participate in negotiations with the contractor.

9. Institute an oversight mechanism to ensure and track compliance with updated
   noncompetitive contracting policies

Management’s Comments

Management generally agreed with the findings, recommendations, and unrecoverable
unsupported questioned costs. However, the actions planned to address two
recommendations warrant close attention. In response to recommendation 6,
management agreed to conduct a review of delegations of authority for the acquisition
of goods and services to determine whether there is a continued need for them. As
necessary, management agreed to revise the delegations to bring them into compliance
with Postal Service purchasing policies or revoke them. In addition, in response to
recommendation 7, management stated that COs’ reviews and evaluations form the
basis for their recommendations to the approving authority and, in effect, make them
accountable for their actions. See Appendix D for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report. If management decides not to revoke a
delegation of authority for the purchase of goods or services, it is critical that the
contracts issued under that delegation be brought into compliance with Postal Service
purchasing policies and be included in the universe of Postal Service contracting




                                             7
U.S. Postal Service Purchasing Policies                                         CA-AR-10-005



actions publicly reported. It is also critical that updates to Postal Service contracting
policy taken in response to recommendation 7 reiterate the accountability and
responsibilities of the contracting officer in approving noncompetitive justifications.
While the justifications are the responsibility of the requesting program office, it is the
CO’s responsibility to ensure fair and reasonable pricing and accurate and complete
justification of the noncompetitive purchase before approval. We will closely review
corrective actions taken to ensure that they fully address our recommendations and the
control weaknesses identified in this report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, director,
Supply Management, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Susan M. Brownell
    Susan A. Witt
    Corporate Audit and Response Management




                                             8
U.S. Postal Service Purchasing Policies                                                  CA-AR-10-005



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Prior to 1970, the Postal Service was known as the Post Office Department. Its
purchasing policy was controlled by the Federal Procurement Regulation, the precursor
to the FAR. In 1970, congress passed the Postal Reorganization Act which established
the Postal Service. At the same time, it was given flexibility in terms of purchasing
practices and was exempted from key federal procurement laws. In 1971, the Postal
Service published the Postal Contracting Manual.

Since the passage of the Postal Reorganization Act, the Postal Service’s purchasing
policies have gone through many changes and iterations in an effort to follow
procurement developments in the private sector, streamline its acquisition process, and
reduce purchasing costs. During this time, it was not required to comply with certain
federal regulations and laws such as the FAR and the Competition in Contracting Act of
1984.

On May 19, 2005, the Postal Service deregulated the majority of its purchasing policies
and procedures and implemented policies and procedures that do not have the full
effect of law. The policies and procedures are now referred to as the Supplying
Principals and Practices (SP&Ps). The Postal Service’s 2002 Transformation Plan and
the President’s Commission on the Postal Service drove these changes, which
recommended the agency follow the same purchasing practices as the private sector.

The SP&Ps are intended to advise and guide Postal Service professionals on how to
perform supply chain management functions. They are not the binding regulations of the
Postal Service but are intended for internal use only to assist the agency in obtaining
best value and efficiently conducting supply chain functions. They include guidance
related to conflicts of interest and noncompetitive purchases. Additionally, the vice
president, Supply Management, issued MI-SP-S2-2007-1, Noncompetitive Purchases,
on July 30, 200712 to provide purchase/supply chain management teams with guidance.
The guidance focused procedures for determining whether to purchase goods or
services competitively or noncompetitively and endorsing and approving noncompetitive
purchases. The vice president issued a revised management instruction on
noncompetitive purchases (MI-SP-S2-2010-1) on June 29, 2010, and a memo to COs
regarding noncompetitive purchases on July 16, 2010.

On January 14, 2010, Senators Collins and McCaskill requested this audit because of
concerns over contracts awarded to individuals or entities that appear to have had prior
business relationships with a Postal Service senior official responsible for the program
and oversight of the contracts. They stated the Postal Service is facing billions of dollars
in annual deficits and that, in light of its dismal financial situation, it must employ policies

12
     This replaced MI-PM-2.1.6-2002-2, Noncompetitive Purchases, dated April 18, 2002.




                                                          9
U.S. Postal Service Purchasing Policies                                                                CA-AR-10-005



and regulations to ensure the best value from its contracts. They were specifically
concerned that policies and regulations governing Postal Service contracts do not go far
enough to protect its interests.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to (1) assess the Postal Service’s procurement policies for
awarding noncompetitive contracts and dealing with conflicts of interest, (2) determine
how Postal Service policies compare to federal regulations and private industry best
practices, and (3) assess the Postal Service’s compliance with its existing
noncompetitive contract policies and procedures.

To accomplish our objectives, we:

        Reviewed the history of the Postal Service’s purchasing policies and procedures
         and the current policies and procedures regarding noncompetitive contracts and
         conflicts of interest. We also compared current policies and procedures to those
         contained in the FAR.

        Benchmarked with the 89 members of the Postal Supplier Council13 by sending
         them questionnaires concerning their noncompetitive purchasing practices. We
         analyzed the 32 responses received and also reviewed the Report of the
         Acquisition Advisory Panel to the Office of Federal Procurement Policy and the
         United States Congress14 to determine private industry best practices.

        Obtained the Postal Service’s universe of contracting actions from October 1,
         2006, to September 30, 2009. The universe contained 39,934 contracting actions
         totaling about $12.9 billion for 26,136 contracts classified as competitively
         awarded; 17,774 contracting actions totaling about $4.2 billion for 13,687
         contracts classified as noncompetitively awarded; 5,442 contracting actions
         totaling about $802 million for 2,027 contracts classified as “can’t tell”15; and 752
         contracting actions totaling about $135 million for 162 contracts classified as
         purchases from mandatory sources.16 We selected a sample of 31 contracts
         classified as competitive and determined whether they were appropriately
         classified. Additionally, we selected a sample of 66 contracts classified as
         noncompetitive and determined whether they were appropriately classified,

13
   The Postal Supplier Council is an assembly of invited Postal Service key suppliers and stakeholders who have
pledged to work collaboratively on mutually beneficial projects outside of their contractual relationships.
14
   The review was dated January 2007. The Acquisition Advisory Panel was authorized by Section 1423 of the
Service Acquisition Reform Act of 2003.
15
   Because of weaknesses in the contract management system, Postal Service personnel were not able to classify all
contractual actions as either competitive or noncompetitive. They labeled those they were unable to classify as “can’t
tell.” The percentage of contractual actions labeled as “can’t tell” was 8.5 percent.
16
   The Postal Service is required to comply with laws that outline mandatory sources for particular purchases. These
include the Javits-Wagner-O'Day Act and the Randolph-Sheppard Act. In addition, under the terms of an interagency
agreement with the Defense Energy Support Center, purchases of certain fuel requirements must follow mandatory
procedures.




                                                         10
U.S. Postal Service Purchasing Policies                                                             CA-AR-10-005



         justified, and approved in accordance with Postal Service’s policies and
         procedures.

        By matching Postal Service vendor file information to employee file information,
         we identified 2,788 contracts in the Contract Authoring Management System with
         current and former Postal Service employees with separation dates dating back
         to August 31, 1991. Of those contracts identified, 359 were noncompetitively
         awarded to employees with separation dates between October 1, 2006, and
         September 30, 2009. Seventeen of those were awarded noncompetitively to
         former Postal Service Career Executives17 within 1 year of their separation from
         the agency. We reviewed Postal Service policies for contracting with former
         employees and compared it to the FAR and reviewed three of the 17
         noncompetitive contracts to determine if the Postal Service followed policies and
         procedures.

        We reviewed seven noncompetitive contracts, identified by the OIG Office of
         Investigations as potentially being influenced by a Postal Service executive.
         Because of concerns regarding the potential abuses of professional services
         contracts, we expanded our sample to review an additional four professional
         services contracts18 that had primary product service descriptions19 similar to the
         seven contracts identified by the OIG’s Office of Investigations. We reviewed the
         10 contracts to determine if the Postal Service adequately justified and approved
         them in accordance with policies and procedures.

We assessed the reliability of the contract data universe the Postal Service provided by
analyzing the percentage of contractual actions classified as “can’t tell.” Also, we
reviewed 31 contracts labeled as competitive and 66 contracts labeled as
noncompetitive for proper classification. We determined the data were not sufficiently
reliable for the purpose of comparing Postal Service noncompetitive contract
percentages to that of the federal government. However, we concluded that the data
were sufficiently reliable to determine whether Postal Service personnel properly
followed policy when preparing noncompetitive justifications. While conducting this
audit, we coordinated closely with OIG’s Office of Investigations and Office of General
Counsel.

We conducted this performance audit from March through September 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our

17
   As of July 2, 2010, there were 692 Postal Service Career Executive employees with annual salaries ranging from
$95,000 to $180,958.
18
   We had already included one of the four contracts in our sample of 66 noncompetitive contracts.
19
   The primary product service descriptions were strategic planning consultation services and management and
business professionals and administrative services.




                                                        11
U.S. Postal Service Purchasing Policies                                     CA-AR-10-005



audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on July 27, 2010, and included
their comments where appropriate.




                                          12
        U.S. Postal Service Purchasing Policies                                                  CA-AR-10-005



        PRIOR AUDIT COVERAGE

        The OIG identified the following eight reports related to the objectives of this audit.

                                                    Final
                            Report                 Report         Monetary
    Report Title           Number                   Date           Impact                 Report Results
Postal Inspection        SA-AR-06-003             5/2/2006           N/A      The Postal Inspection Service’s
Service                                                                       controls over the noncompetitive
Noncompetitive                                                                contract process needed
Contract Process                                                              improvement. Management agreed
                                                                              with the findings and
                                                                              recommendations.
Controls Over            CA-AR-06-002         5/26/2006            $137,636   The Postal Service’s controls over
Noncompetitive                                                                noncompetitive personal services
Contracts Awarded                                                             contracts awarded to former Postal
to Former Postal                                                              Service employees needed
Service Employees                                                             improvement. Management agreed
                                                                              with the findings and
                                                                              recommendations but not the
                                                                              monetary impact calculation.
Commodity                CA-MA-07-005             8/2/2007          N/A       The Postal Service should explore
Sourcing Activities                                                           options for developing alternative
Within the                                                                    supply sources and obtain contractor
Automation                                                                    cost and pricing data when
Category                                                                      noncompetitively awarding share-in-
Management Center                                                             savings, incentive-type mail
                                                                              automation contracts. Management
                                                                              generally agreed with the findings and
                                                                              recommendations.
The Postal Service’s     HM-MA-08-            2/21/2008             N/A       The Postal Service’s selection
Equal Employment         001                                                  process for Equal Employment
Opportunity                                                                   Opportunity investigative services and
Contracting Function                                                          final agency decision writers was not
                                                                              adequately documented to ensure fair
                                                                              treatment of suppliers, adequate
                                                                              competition, and compliance with the
                                                                              best value requirements of the
                                                                              delegations of authority. Management
                                                                              agreed with the finding and
                                                                              recommendation.




                                                             13
        U.S. Postal Service Purchasing Policies                                                CA-AR-10-005



                                                Final
                            Report             Report          Monetary
    Report Title           Number               Date            Impact                  Report Results
Controls Over            CA-AR-09-001        10/17/2008       $5,866,413   The Postal Service’s national medical
Delegation of                                                              director, senior area medical directors,
Authority for Medical                                                      and district occupational health nurse
Agreements                                                                 administrators (DOHNA) and Supply
                                                                           Management personnel could improve
                                                                           controls over Medical Services
                                                                           delegations of authority. For example,
                                                                           DOHNAs did not maintain
                                                                           documentation demonstrating that
                                                                           agreements were competed among
                                                                           qualified suppliers. Management
                                                                           agreed with the findings and
                                                                           recommendations, unsupported
                                                                           questioned costs, questioned costs,
                                                                           and disbursements at risk.
Management               MS-MA-09-           10/22/2008           N/A      The Postal Service’s controls related
Controls at              001                                               to contractor-operated mail
Contractor Operated                                                        processing facilities revealed the
Mail Processing                                                            contract award process did not
Facilities                                                                 address potential organizational
                                                                           conflicts of interest. Management
                                                                           agreed with the findings but did not
                                                                           agree with all of the
                                                                           recommendations.
Supply                   CA-AR-09-005             6/1/2009        N/A      The Postal Service did not have
Management’s                                                               adequate controls to ensure financial
Oversight of                                                               due diligence and adhering to the
Delegations of                                                             principles guiding delegations of
Authority                                                                  authority. The principles focus on
                                                                           ensuring fair and ethical treatment of
                                                                           all suppliers and obtaining the best
                                                                           value for the Postal Service.
                                                                           Management agreed with the findings
                                                                           and recommendations but not the
                                                                           non-monetary impact.
Information              CA-AR-09-007         9/29/2009           N/A      The Postal Service’s task order
Technology’s                                                               pricing process and price and cost
Preferred Portfolio                                                        analysis for information technology
Partnering Program                                                         contracts usually did not result in
                                                                           negotiated price reductions.
                                                                           Management agreed with the findings
                                                                           and recommendations.




                                                             14
U.S. Postal Service Purchasing Policies                                                CA-AR-10-005




                                     APPENDIX B: DETAILED ANALYSIS

Postal Service Policies Controlling Noncompetitive Contracts Need
Strengthening

The main differences between the FAR and the SP&Ps are:

           The FAR is statutory and the SP&Ps are not. The FAR was established to codify
            and publish mandatory uniform policies and procedures for all executive agency
            acquisitions. As such, violating the FAR is a clear violation of a known federal
            regulation. The SP&Ps are not binding regulations and are generally intended to
            provide flexibility and discretion in their application to specific business situations.
            Portions of the SP&Ps are intended as guidance and other portions are
            considered mandatory.

           The FAR, Subpart 6.5, requires the head of each agency to designate a
            competition advocate. The competition advocate plays a vital role in promoting,
            ensuring, and tracking federal agencies’ compliance with full and open
            competition requirements. The competition advocate is responsible for, among
            other things, promoting full and open competition, setting goals to increase
            competition, and reviewing and approving justifications for certain noncompetitive
            contracts. The SP&Ps do not require a competition advocate in the Postal
            Service.

           The FAR requires transparency in the public reporting of noncompetitive
            contracting statistics and the Postal Service does not compile competition
            statistics or require formal reporting. In response to the January 14, 2010,
            congressional inquiry, however, purchasing statistics were compiled. This
            compilation was a highly manual process that resulted in at least $910,965,964
            of $17,991,496,721 (or 5.1 percent) in contractual actions that the Postal Service
            either could not classify as competitive or noncompetitive or classified incorrectly.

           On July 16, 2010, the FAR was amended to require federal agencies to publicly
            post their noncompetitive justifications on the Internet within 14 to 30 days after
            contract award.20 The Postal Service does not publicly post noncompetitive
            justifications. Transparency in contracting is a strong internal control in its own
            right.

           Title 10 U.S.C. §2304 and Title 41 U.S.C. §253 require that, with certain limited
            exceptions, COs shall provide for full and open competition in soliciting offers and
            awarding government contracts. At the Postal Service, however, the SP&Ps state
            that best value is the driving principle and that, while this is generally achieved

20
     FAR Subpart 6.305, Availability of the Justification.




                                                             15
U.S. Postal Service Purchasing Policies                                                            CA-AR-10-005



         through competition, market conditions may dictate that a single or sole-source
         strategy will be the best business approach.

        Postal Service policy allows for delegations of contractual authority (DOAs) by
         the vice president, Supply Management, and the FAR does not. DOAs allow
         delegatees to manage contracts outside of Postal Service contracting policy. This
         severely weakens the control environment surrounding these contracts. We
         discuss this issue further below.

In addition, the FAR requirements for justifying noncompetitive contracts are more
stringent than the SP&Ps. Specifically, the FAR has the following additional
requirements for the noncompetitive justification:

        A description of efforts made to ensure receipt of offers from as many potential
         sources as is practicable.

        The CO’s determination that prices are fair and reasonable. 21

        The CO’s certification that the justification is accurate and complete to the best of
         their knowledge and belief.

Delegations of Authority

One significant difference in procurement policy in the Postal Service is that it allows the
vice president, Supply Management, to delegate authority. This delegation effectively
releases all related contracting actions from the requirements of most Postal Service
purchasing regulations and policies. The SP&Ps require the vice president, Supply
Management, to ensure that all Postal Service-supplying activities further the business
and competitive interests of the agency. In turn, the vice president, Supply
Management, has delegated certain individuals the authority to negotiate, award,
modify, and terminate contracts; and, in some cases, to re-delegate these authorities.
The delegatees are not required to comply with the SP&Ps, rather, they are required to
follow four business principles. The four business principles are: (1) all suppliers must
be treated in an objective and business-like manner, (2) all actions must adhere to the
Code of Ethical Conduct for Employees of the Executive Branch, (3) when practical,
requirements should be competed among qualified suppliers, and (4) all agreements
must be issued to the supplier offering the best value to the Postal Service.

Our June 2009 report22 found that, once contractual authority is delegated, the Postal
Service does not have adequate controls to ensure financial due diligence and meeting
the principles guiding DOAs. Specifically, Supply Management did not have procedures
for maintaining a current list of DOAs and DOA files and did not implement a process to

21
   While not requiring documentation of a determination that prices are fair and reasonable as part of the
noncompetitive justification, the SP&Ps do require that price/cost analysis be documented in the contract file.
22
   Supply Management’s Oversight of Delegations of Authority (Report Number CA-AR-09-005, dated June 2009).




                                                        16
U.S. Postal Service Purchasing Policies                                                           CA-AR-10-005



ensure delegatees complied with DOA minimum oversight requirements. For example,
delegatees generally did not provide required annual financial reports to Supply
Management. Also, our prior detailed reviews of three delegations23 found that none of
them adequately documented the supplier selection process to ensure compliance with
the best value requirements of DOAs. At the time of our review, Supply Management
personnel maintained a list of 65 DOAs and estimated that expenditures for goods and
services purchased through DOAs totaled approximately $208 million for FYs 2007 and
2008.

In April 2010, we found that almost all of the delegatees24 were still not filing the
required reports. Also, the investigation mentioned earlier found that a Postal Service
official agreed to a noncompetitive contract under his DOA for purposes other than what
the DOA allowed. The $1.6 million contract award was, in effect, a ratification of a
previous unauthorized contractual commitment entered into by the president, Mailing
and Shipping Services. This action circumvented the appropriate ratification process
and violated the terms of the DOA.

As such, the process for managing DOAs after approval does not ensure appropriate
financial due diligence and oversight, subjecting the Postal Service to financial and legal
risks. These risks are not in the organization’s best interest and could negatively impact
the Postal Service’s public image and brand.

Private Sector Practices Also Encourage Competition

In our review of private industry practices, we found similarities in encouraging
competition in the FAR, the Postal Service SP&Ps, and private industry practice.
Specifically, all three require special approval authority for noncompetitive contracts.
With regard to private industry practices, the Report of the Acquisition Advisory Panel to
the Office of Federal Procurement Policy and the United States Congress details that
commercial practice strongly favors fixed-price contracts in the context of head-to-head
competition in an efficient market. In the absence of competition, which is relatively rare,
commercial buyers rely on their own market research and benchmarking and often seek
data on similar commercial sales.

We solicited the input of 89 Postal Service suppliers. Thirty-two of them (36 percent)
responded to the survey as follows:

        Twenty-five had specific criteria for awarding contracts noncompetitively.
        Seventeen required special authority to award noncompetitively.
        Fourteen required oversight of noncompetitive awards.

23
   The delegations were reviewed in the reports, The Postal Service’s Equal Employment Opportunity Contracting
Function (Report Number HM-MA-08-001, , dated February 21, 2008); and Controls over Delegation of Authority for
Medical Agreements (Report Number CA-AR-09-005, dated October 17, 2008).
24
   At the time, there were 33 DOAs listed on the Supply Management website. Supply Management personnel could
only provide FY 2009 financial reports for seven of the delegations.




                                                       17
U.S. Postal Service Purchasing Policies                                         CA-AR-10-005



       Seven suppliers tracked their noncompetitive dollars.

Conflicts of Interest Policies Need to be Strengthened

Postal Service personnel must adhere to Title 5 CFR §2635 and §7001, and Title 18
U.S.C. §201-209 in regard to ethics and conflicts of interest, the same regulations that
apply to other federal employees. In addition to these regulations, the SP&Ps contain
guidance regarding organizational conflicts of interest that is similar to the FAR. In
addition, the FAR states:

        Government business shall be conducted in a manner above reproach
        and, except as authorized by statute or regulation, with complete
        impartiality and with preferential treatment for none. Transactions
        relating to the expenditure of public funds require the highest degree of
        public trust and an impeccable standard of conduct. The general rule is
        to avoid strictly any conflict of interest or even the appearance of a
        conflict of interest in Government-contractor relationships. While many
        Federal laws and regulations place restrictions on the actions of
        Government personnel, their official conduct must, in addition, be such
        that they would have no reluctance to make a full public disclosure of
        their actions.

The ISM provides ethics guidelines to private companies concerning conflicts of interest
that are similar to the SP&Ps and FAR. All of these guidelines emphasize the
importance of avoiding the appearance of a conflict of interest or impropriety in the
conduct of business activity, particularly in the procurement of goods and services.

Noncompetitive contracts, by their nature, can give the appearance of favoritism and a
lack of impartiality. In general, the responsibility for reporting potential or apparent
conflicts of interest to the ethics official rests with the individual. However, Supply
Management personnel authorizing noncompetitive contracts should consider any
potential appearance of impropriety before approving the purchase and consult with an
ethics official when the potential for a conflict of interest exists. The Postal Service has
recently strengthened its policies regarding conflicts of interest in noncompetitive
purchases and has provided training and guidance to Supply Management personnel.
However, Postal Service policies should be further strengthened to ensure that
personnel with real or apparent conflicts of interest are properly vetted through the
agency ethics official and do not participate in contract negotiations. The need for strong
contractual oversight in the face of apparent conflicts of interest is evidenced by a
recent case where a former Postal Service executive dictated the award of several
noncompetitive contracts to his friends and former business associates. Supply
Management officials approving those contracts did not address the ethical issues at
hand.




                                             18
U.S. Postal Service Purchasing Policies                                                             CA-AR-10-005



In testing Postal Service compliance with its noncompetitive contracting policies, we
evaluated seven contracts identified in an OIG investigation as being improperly
influenced, as well as negotiated, by a former Postal Service executive. We also
reviewed three noncompetitive contracts awarded to former executives within 1 year of
leaving the Postal Service. None of the 10 contracts complied with noncompetitive
contracting policies, creating the appearance of an unethical contracting environment at
the Postal Service. We believe Supply Management personnel approving these
noncompetitive contracts have a responsibility to appropriately analyze and evaluate all
potential unethical appearances and conflicts of interest issues and ensure that parties
with real or apparent conflicts of interest do not participate in negotiations.

The Postal Service Cannot Readily or Accurately Identify its Noncompetitive
Contract Universe

In response to the January 14, 2010, congressional inquiry, the Postal Service
attempted to compile a universe of both competitive and noncompetitive contracts. This
compilation was a highly manual process that resulted in the Postal Service being
unable to classify 4.5 percent of its contractual actions totaling $801,846,304.

In addition, when we began a review of the data, we found other errors and omissions.
Specifically, we chose 31 contracts classified as competitive to verify the accuracy of
the classification. One of the contracts was not valid25 and Postal Service personnel
were unable to provide documentation for another because the contract file was
archived. Of the remaining 29 contracts, we found that two with contractual actions
totaling $30,148 were actually noncompetitively awarded. Based on a statistical analysis
of the results, we concluded that, at the 95 percent confidence interval, at least 1.16
percent (or 304) of the 26,136 contracts classified as competitively awarded were
actually noncompetitively awarded.

Also, contracts entered into under DOAs were not included in the compilation and we
identified five contracts with contractual actions totaling $109,089,512 classified as
noncompetitive that were actually competitively awarded. Based on the number of
errors found in the universe the Postal Service identified and the omission of contracts
entered into under DOAs, we found the universe to be unreliable for the purposes of
comparing noncompetitive contract percentages to that of the federal government.26




25
   Supply Management personnel stated that this contract was for a Pony Express public relations event and was not
valid.
26
   See Appendix C for calculation of data integrity errors.




                                                        19
U.S. Postal Service Purchasing Policies                                              CA-AR-10-005



Postal Service Personnel Did Not Consistently Comply with Existing
Noncompetitive Contracting Policies

We sampled noncompetitive contracts from the Postal Service’s October 1, 2006, to
September 30, 2009, universe of contractual actions to determine if they complied with
policies for justifying and awarding noncompetitive contracts. We found that 24 of 68 (or
35 percent) of the noncompetitive contracts sampled did not fully comply with Postal
Service policies. The 24 contracts had contractual actions totaling $218,940,344.27 We
also found ethical concerns regarding improper influence exerted on the contracting
process by a former Postal Service executive, as well as the award of noncompetitive
contracts to former Postal Service executives. We also reviewed a judgmental sample
of 13 contracts based on allegations of impropriety and concerns that arose during the
resultant investigation. We determined that none of the 13 fully complied with Postal
Service policies.

Noncompetitive Contract Sample

From the universe of noncompetitive contracts, we selected 66 for review. We did not
review six of the contracts because they either duplicated other contracts already
included in our sample or were for the purchase of real estate, therefore exempt from
the requirements. Additionally, we determined that five of the contracts were actually
competitively awarded. We reviewed the remaining 55 contracts to determine if Postal
Service policy for noncompetitive contracts was followed and found that 11 (or 20
percent) were not in compliance with policy. Specifically, the noncompetitive business
cases for the contracts did not contain sufficient documentation for one or more of the
required elements. For example, a required element of a noncompetitive business case
was market research. It is important that market research be documented to
demonstrate why other products/services should not be considered for purchase.

Instances Specific to Postal Service Policy Regarding Contracts with Former Postal
Services Executives

Although, the Postal Service has specific policies regarding contracting with former
executives, that policy has not prevented the Postal Service from contracting with
former executives shortly after leaving the agency at greatly elevated rates of pay.
There is specific policy limiting contracts with officers or Postal Service executives for 1
year after their date of separation from the Postal Service. The SP&Ps state:

           The Postal Service does not contract with former officers or Postal
           Service Executive Service (PCES) executives or entities with which
           such individuals have a substantial interest for 1 year after the date of
           their separation from the Postal Service (whether by retirement or
           otherwise) if the contract calls for substantially the same duties as they

27
     See Appendix C for calculation of unrecoverable unsupported questioned costs.




                                                          20
U.S. Postal Service Purchasing Policies                                           CA-AR-10-005



        performed during their career with the Postal Service, as determined
        by the Vice President of Human Resources. The Vice President of
        Human Resources may grant exceptions to this policy when he or she
        determines that doing so is in the best interest of the Postal Service.
        Lastly, contracts with former employees (those who are not former
        officers or executives), or with suppliers proposing the use of former
        officers, executives, or employees, are subject to the review and
        approval of the VP, Human Resources.

By matching Postal Service vendor file information to employee file information, we
identified 2,788 contracts in the Contract Authoring Management System with current
and former Postal Service employees with separation dates dating back to August 31,
1991. Of these, the Postal Service awarded 359 to employees with separation dates
from October 1, 2006, to September 30, 2009, with 17 awarded noncompetitively to
Postal Service Career Executives within 1 year of their separation from the agency. We
analyzed three of these contracts as part of our sample and found that all
noncompetitive business cases associated with them were insufficiently documented
and supported. In addition, the former executives were generally being brought back to
perform duties or “transfer knowledge” related very closely to the Postal Service position
they vacated at rates of pay higher than their former salaries. The contracted hourly rate
was $75 for one former executive and $160 an hour for the other two; those fees were
between $6 and $72 an hour higher than the hourly salary rate the executives made at
the Postal Service. These contracts were put in place, even though highly experienced
Postal Service executives filled the positions vacated by the former executives.

The most recent contract in question was with the former vice president, Network
Operations. He retired on May 1, 2009, and was awarded a $260,000 noncompetitive
contract on July 2, 2009, for “knowledge transfer” to the Postal Service executive who
assumed his position. There was a 1-year option for an additional $260,000 that, if
exercised, would have cost the Postal Service an additional $260,000 for a total of
$520,000 to transfer knowledge. Human Resources approved this contract and found
that the duties were not substantially the same as previously performed. Given that the
former vice president was providing “knowledge transfer” just a few months after his
retirement, we believe the contracted duties were significantly similar to his former
responsibilities.

There is an ethics issue to consider when noncompetitively contracting with former
executives for “knowledge transfer” shortly after their retirement at rates much higher
than their former salaries. It appears unethical to hire back former executives at nearly
twice their former pay to advise new executives who were placed in their position based
on their expertise and years of Postal Service experience. There is also employee
morale and public image issues management must consider when the Postal Service is
closing post offices and seeking a reduced delivery schedule.




                                            21
U.S. Postal Service Purchasing Policies                                                                   CA-AR-10-005



Instances Where Former Postal Service Executive Applied Undue Influence

We reviewed seven contracts identified by the OIG’s Office of Investigations as being
potentially influenced by the president, Mailing and Shipping Services. Five of these
were with individuals who had a prior business relationship with him. Upon review, we
found all noncompetitive business cases associated with the contracts to be
insufficiently documented and supported.

Of particular concern is that the president, Mailing and Shipping Services, and the
contractors predetermined the pay rates for at least three of the contracts. Supply
Management staff approving the contracts attempted to justify the rates prior to actual
contract award by comparing them to independent data, such as a market research
study by Deloitte. 28 However, the justification was performed after the decision to award
the contracts at rates dictated by the president, Mailing and Shipping Services. In the
FAR environment, the CO would have been required to certify that contract costs were
determined to be fair and reasonable and support that certification with adequate rate
analysis and market research. In addition, the CO would be required to ensure offers
were obtained from as many sources as possible and certify their support and belief in
the noncompetitive purchase justification.

In addition, the OIG investigation found e-mail traffic between the president, Mailing and
Shipping Services, and one of the contractors in which the contractor informs him that
she was recently laid off. In response, he states:

         “. . . Would you have any interest in working for the Postal Service as a
         consultant, temporary, full time, or part time employee in our marketing, strategic
         planning, or financial planning groups? . . . we could assign you to any function
         you would like for as long as you would like.”

The contractor was then awarded a sole source contract based on her skills as an
investment banker the following month.

At a minimum, the influence and involvement of the president, Mailing and Shipping
Services, creates an appearance that these contracts were inappropriately awarded
noncompetitively and that rates were not fairly determined or negotiated by appropriate,
independent contracting personnel.

We reviewed four additional professional services contracts29 that had similar primary
product service descriptions as the contracts30 identified by the Office of Investigations.
We found all noncompetitive business cases associated with the contracts to be

28
   An analysis of vendor contractors’ salaries for consulting services of all disciplines and experience levels and a
general guide to contract award amounts.
29
   We had already included one of the four contracts in our sample of 66 noncompetitive contracts.
30
   The primary product service descriptions were strategic planning consultation services and management and
business professionals and administrative services.




                                                           22
U.S. Postal Service Purchasing Policies                                                                CA-AR-10-005



insufficiently documented and supported. However, they did not appear to be
unethically influenced.

The following table summarizes the results of our review.

                                     Competitive
Noncompetitive       Number of         Contracts            Not      Noncompetitive
  Contracts           Sample          Incorrectly        Applicable    Contracts             Insufficient   Sufficient
  Categories         Contracts       Classified as       Contracts31   Reviewed32
                                    Noncompetitive
Noncompetitive
Contract Sample           66                5                  6               55                11             44
Contracts with
Former Postal
Service
Executives                3                 0                  0                3                 3              0
Contracts
Influenced by
Former Postal
Service Executive         7                 0                  0                7                 7              0
Other
Professional
Service Contracts         3                 0                  0               3                 3              0
       Total              79                5                  6               68                24             44




31
   These contracts were either duplicates of contracts already included in our sample or were for the purchase of real
estate, therefore exempt from the noncompetitive contracting requirements.
32
   Number of sample contracts less competitive contracts incorrectly classified as “noncompetitive,” therefore, not
applicable contracts.




                                                          23
U.S. Postal Service Purchasing Policies                                                               CA-AR-10-005



For the 68 noncompetitive contracts reviewed, the table below identifies the number of
elements of the noncompetitive business cases33 that were insufficiently documented. A
business case could have been insufficiently documented for more than one element.

           Required Elements of a              Required Elements               Required Elements
               Noncompetitive                    Insufficiently                   Sufficiently
                Business Case                    Documented                      Documented
          Purpose of the contract                      2                               66
          Basis for the
          noncompetitive purchase                         6                               62
          Plans for competing
          future purchases                                15                              53
          Uniqueness of the goods
          or services                                      7                              61
          Market research                                 15                              53
          Company identity (type of
          organization, prior
          customers and contracts)
          and contracting history
          with the Postal Service                         1                               67
          Total estimated cost of
          goods and services                              2                               66
          Endorsement by the vice
          president of the requiring
          organization (for
          purchases over
          $250,000)                                       6                               62
          Approval by appropriate
          Supply Management
          personnel based on the
          dollar amount of the
          approval authority                              5                               63




33
   MI-SP-S2-2007-1, Noncompetitive Purchases, dated July 30, 2007, required completion of a noncompetitive
business case to document the justification for the decision to purchase goods or services noncompetitively. The
noncompetitive business case template included in the management instruction includes required elements and
specific instructions for documentation required for each element.




                                                         24
U.S. Postal Service Purchasing Policies                                        CA-AR-10-005




              APPENDIX C: MONETARY AND NON-MONETARY IMPACTS

             Calculation of Unrecoverable Unsupported Questioned Costs

These costs are questioned because their noncompetitive justifications do not contain
all the required elements and/or approvals/endorsements prescribed by Postal Service
policy. These amounts are not necessarily actual losses incurred by the Postal Service.


                                                                            Value of
                                                      Number of
                                                                           Contractual
                                                    Contracts with
  Noncompetitive Contracts Reviewed                                    Actions Associated
                                                     Insufficient
                                                                        with Insufficient
                                                    Documentation
                                                                         Documentation
Noncompetitive contract sample                             11                $210,279,502
Contracts with former Postal Service
executives                                                 3                         503,000
Contracts influenced by former Postal
Service executive                                          7                    7,873,842
Other professional service contracts                       3                      284,000
                   Total                                   24                $218,940,344


                              Calculation of Data Integrity Errors

                            Category                                 Amount
          Contractual actions classified as “can’t tell”              $801,846,304
          Misclassified noncompetitive contracts                       109,089,512
          Misclassified competitive contracts                               30,148
                               Total                                  $910,965,964




                                               25
U.S. Postal Service Purchasing Policies                     CA-AR-10-005




                        APPENDIX D: MANAGEMENT’S COMMENTS




                                          26
U.S. Postal Service Purchasing Policies        CA-AR-10-005




                                          27
U.S. Postal Service Purchasing Policies        CA-AR-10-005




                                          28
U.S. Postal Service Purchasing Policies        CA-AR-10-005




                                          29
U.S. Postal Service Purchasing Policies        CA-AR-10-005




                                          30
